                               UNITED STATES DEPARTMENT OF EDUCATION
                                                    OFFICE OF INSPECTOR GENERAL

                                                                                           Evaluation and Inspection Services

                                                                                                                      Control Number
                                                                                                                    ED-OIG/I13L0003

                                                           April 23, 2012

Thomas P. Skelly
Delegated the Authority to Perform the Functions and Duties of the Chief Financial Officer
Office of the Chief Financial Officer
U.S. Department of Education
550 12th Street, SW
Washington, DC 20202


Dear Mr. Skelly:

This final inspection report presents the results of our review of the Department’s process for
identifying and reporting high-dollar overpayments required under Executive Order 13520 and
the Department’s response to the results.

The objective of our inspection was to evaluate the Department’s process for identifying and
reporting high-dollar overpayments required under Executive Order 13520 as implemented
through guidance in Office of Management and Budget Circular A-123, Appendix C, Part III.
We found that the Department’s process for identifying and reporting high-dollar overpayments
could be strengthened, and during the course of our inspection, the Department began taking
steps to strengthen its process.



                                                      BACKGROUND



On November 20, 2009, the President signed Executive Order 13520 (Reducing Improper
Payments). Section 3(f) of the Executive Order requires the head of each agency to submit to the
agency’s Inspector General and the Council of Inspectors General on Integrity and Efficiency
(CIGIE), and make available to the public, a report on any high-dollar improper payments
identified by the agency. The Executive Order requires each agency to submit these reports at
least once every quarter.

On March 22, 2010, the Office of Management and Budget (OMB) issued Part III to OMB
Circular A-123, Appendix C (OMB A-123) to provide guidance to agencies on the
implementation of the Executive Order. According to OMB A-123, an improper payment is:




 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
    [A]ny payment that should not have been made or that was made in an incorrect amount under
    statutory, contractual, administrative, or other legally applicable requirements.[1] Incorrect
    amounts are overpayments and underpayments (including inappropriate denials of payment or
    service). An improper payment includes any payment that was made to an ineligible recipient or
    for an ineligible service, duplicate payments, payments for services not received, and payments
    that are for the incorrect amount. In addition, when an agency’s review is unable to discern
    whether a payment was proper as a result of insufficient or lack of documentation, this payment
    must also be considered an error.

OMB A-123 restricts the reporting of improper payments to high-dollar overpayments and
defines a high-dollar overpayment as any overpayment that is in excess of 50 percent of the
correct amount of the intended payment with the following conditions:

    (1) The total payment to an individual exceeds $5,000 as a single payment or in

        cumulative payments for the quarter, or

    (2) The payment to an entity exceeds $25,000 as a single payment or in cumulative

        payments for the quarter.


Based on OMB A-123, a single payment or cumulative payments to the wrong individual or
entity that exceeds the respective $5,000 or $25,000 limit would meet the high-dollar
overpayment threshold because 100 percent of the overpayment is above the intended payment
of zero. A single payment or cumulative payments of $6,500 to the correct individual, for
example, when the intended amount was $3,000 would meet the high-dollar overpayment
threshold, because the payment is more than 50 percent higher than the intended amount, and the
total payment is above $5,000. Conversely, a payment of $1,400,000 to the correct entity when
the intended payment was $1,000,000 would not meet the high-dollar overpayment threshold and
would not be considered a high-dollar overpayment, because the overpayment does not exceed
50 percent of the intended payment.

OMB A-123 states, “Given the potential significant resource and operational challenges agencies
may face to implement this provision, OMB will work with agencies to implement this
requirement.” OMB A-123 also states that high-dollar overpayments should be identified by
examining several sources of information available to agencies and provides the following
sources that agencies could use:

    1.   Statistical samples conducted under the Improper Payment Information Act;
    2.   Agency post-payment reviews;
    3.   Recovery audits;
    4.   Agency Inspector General reviews;
    5.   Self-reports; or
    6.   Reports from the public through hotlines and other referrals.


1
 According to OMB A-123, the term “payment” means any payment (including a commitment for future payment,
such as a loan guarantee) that is derived from Federal funds or other Federal sources; ultimately reimbursed from
Federal funds or resources; or made by a Federal agency, a Federal contractor, a governmental or other organization
administering a Federal program or activity. This includes Federal awards subject to the Single Audit Act
(31 U.S.C. Chapter 75) that are expended by both recipients and subrecipients.

                                                         2

OMB A-123 specifies that reports on high-dollar overpayments must:

      1.	 List all high-dollar overpayments identified by the agency during the quarter;
      2.	 Describe whether each high-dollar overpayment was made to an entity or individual,
          and where that entity or individual was located;
      3.	 List the program responsible for each high-dollar overpayment error;
      4.	 Describe any actions the agency has taken or plans to take to recover high-dollar 

          overpayments; and

      5.	 Describe any actions the agency will take to prevent overpayments from occurring in
          the future.

OMB officials from the Office of Federal Financial Management informed us that agencies have
flexibility in the reporting of high-dollar overpayments and each agency can tailor its
methodology to what is most effective for the agency. OMB has not specified minimum
amounts of time or money that an agency should spend on identifying and reporting high-dollar
overpayments. However, OMB does expect agencies to do a systematic review and to make a
good faith effort to comply with the requirements.

The U.S. Department of Education’s (Department) Office of the Chief Financial Officer (OCFO)
has lead responsibility for coordinating the Department’s improper payment requirements,
including the reporting of high-dollar overpayments. OCFO developed draft procedures for
identifying and reporting high-dollar overpayments in September 2010. These procedures were
based on the process it had already been following up to that point. OCFO was aware that some
of the procedures would need to be revised as a result of anticipated additional guidance from
OMB.2

Federal Student Aid (FSA) is responsible for identifying and analyzing FSA overpayments and
reporting them to OCFO. The Office of the Chief Information Officer (OCIO) and Office of
Management (OM) also report overpayments that they become aware of to OCFO. After OCFO
receives overpayment reports from FSA, OCIO, and OM, it reviews them to ensure that they
meet the criteria for high-dollar overpayments. To date, all of the high-dollar overpayments
reported by OCFO have resulted from its review of overpayments received from OCIO, FSA,
and OM. OCFO also reviews overpayments identified in prior audit reports and program
reviews to determine whether they meet the criteria for high-dollar overpayments. OCFO has
determined that none of the overpayments identified in prior audit reports and program reviews
have met the threshold for reporting high-dollar overpayments.




2
    As of December 2011, OMB had not provided additional guidance on high-dollar overpayments.

                                                        3

OCFO prepares and submits a report to OMB, the Department’s Office of Inspector General
(OIG), and CIGIE. The Department has issued 8 reports with a total of 12 high-dollar
overpayments through December 31, 20113:

                                               No. of High-Dollar            Total Dollars
                   Period Ending                Overpayments                  Identified
                   March 31, 2010                       0                               0
                   June 30, 2010                        0                               0
                   September 30, 2010                   3                   $120,867,777
                   December 31, 2010                    1                    $14,711,651
                   March 31, 2011                       2                     $1,696,759
                   June 30, 2011                        1                        $16,950
                   September 30, 2011                   2                       $868,522
                   December 31, 2011                    3                       $231,026



                                          REVIEW RESULTS


The objective of our inspection was to evaluate the Department’s process for identifying and
reporting high-dollar overpayments required under Executive Order 13520 as implemented
through guidance in OMB Circular A-123, Appendix C, Part III. We found that the
Department’s process for identifying and reporting high-dollar overpayments could be
strengthened, and during the course of our inspection, the Department began taking steps to
strengthen its process.

Each quarter, OCFO identifies potential high-dollar overpayments in two ways. OCFO reviews
overpayments identified by OCIO, FSA, and OM, and overpayments identified in prior audit
reports and program reviews.

Review of Overpayments Identified by OCIO, FSA, and OM

OCFO contacts OCIO, FSA, and OM each quarter to determine whether staff in those offices
have identified any overpayments during that quarter. OCIO’s final reporting procedures for
reporting identified improper payments include whom to notify and how to track the status of the
improper payment. FSA has developed a similar set of draft reporting requirements for when
staff become aware of an improper payment. Both OCIO and FSA procedures address improper
payments in general and are not specific to high-dollar overpayments. OM began reporting to
OCFO for FY 2012 and has not formalized any procedures to report to OCFO. OCFO staff
review any overpayments identified by OCIO, FSA, and OM to determine whether the items
meet the high-dollar threshold.

3
  Two of the Department’s descriptions of the high-dollar overpayments mentioned that the overpayments were
identified through an internal process, two of the descriptions mentioned that the overpayments were identified
through a referral from the recipient, and eight of the descriptions did not mention how the overpayments were
identified.

                                                         4
Review of Overpayments Identified in Prior Audit Reports and Program Reviews

When the Department has determined the final amount for an audit or program review finding, it
establishes an account receivable for that amount. Monetary audit and program review findings
are by definition improper payments. OCFO uses accounts receivable to identify overpayments
because at the point when an account receivable is established, the amount of the improper
payment to be returned to the Department has been finalized and is known.

OCFO extracts accounts receivable established in each quarter from A-133 audit, OIG audit, and
program review findings. OCFO determines whether the accounts receivable are related to FSA
programs or non-FSA programs. OCFO then provides the FSA accounts receivable to FSA and
analyzes the non-FSA accounts receivable to determine whether any of them meet the high-
dollar threshold by comparing the amount of the overpayment to the amount expended using
program determination letters, audit clearance documents, and data in the Department’s Audit
Accountability and Resolution Tracking System (AARTS). To date, OCFO has not identified
any accounts receivable amounts that have met the threshold for reporting high-dollar
overpayments.

For the quarter we reviewed, OCFO identified 111 FSA line items and 5 non-FSA line items in
the accounts receivable report. We found that FSA did not analyze any of the audit and program
review accounts receivable provided by OCFO to identify high-dollar overpayments. FSA staff
stated that a review of accounts receivable would require additional data sources. These
additional data sources are similar to those used by OCFO to determine whether non-FSA
accounts receivable meet the high-dollar threshold. FSA has not analyzed the resources that
would be required to perform this review of accounts receivable, but FSA staff anticipate that it
may require significant resources given the volume of data and number of reports. In May 2011,
FSA contracted with Deloitte & Touche LLP (Deloitte) to assist with its identification of and
reporting on improper payments, including high-dollar overpayments. One of the tasks Deloitte
is required to perform is an evaluation of OCFO’s interim processes and available FSA data
sources to determine what FSA should do to meet the high-dollar overpayment requirements.
Deloitte initiated this evaluation in November 2011.

During the course of our inspection, FSA staff informed us that FSA had not determined whether
Title IV overpayments should be analyzed at the entity level or at the individual level.4 The
Department provides Title IV funds to institutions, which act as fiduciaries responsible for
administering the funds to students. If Title IV payments are analyzed at the institution level, the
high-dollar threshold of $25,000 for entities would apply. If Title IV payments are analyzed at
the student level, the high-dollar threshold of $5,000 would apply. FSA cannot determine
whether Title IV overpayments meet the high-dollar threshold until it has determined whether
payments should be analyzed at the institution level or at the student level.

In August 2011, we informed OCFO that its use of only the accounts receivable amount
understates some overpayments identified through audits and program reviews. For example, in

4
 Title IV of the Higher Education Act of 1965, as amended, authorizes the Federal student aid programs that include
Federal grants, loans, and work-study programs.

                                                        5

some cases the audit or review finding is valid, but the Department will not collect any of the
overpayment because resolution of the finding is past the statute of limitations for taking action.
Another example would be when the Department enters into a settlement agreement with an
entity for less than the audit or program review finding. In these instances, an account receivable
will not even be established or the account receivable amount will be less than the amount of the
overpayment.

We identified an alternate source of overpayment data in AARTS that could provide more
accurate information on overpayments than accounts receivable alone because, as noted above,
not all audit findings will result in an account receivable that reflects the actual overpayment.
Among other information, AARTS contains the following on monetary audit findings:

        Sustained Amount,5
        Amount Not Recoverable Due to Statute of Limitations,
        Other Amount Not Recoverable,
        Additional Amount Recommended by the Action Official,6 and
        Total Amount Recoverable (Sustained Amount + Additional Amount Recommended by
         the Action Official – Amount Not Recoverable Due to Statute of Limitations – Other
         Amount Not Recoverable)

We shared this information with OCFO and suggested that OCFO use this information to
determine more accurate amounts for audit overpayments. After performing its own analysis of
the AARTS data for three quarters and comparing it with the results from using only accounts
receivable, OCFO agreed that the AARTS data provided more accurate information than
accounts receivable alone. For future reports, OCFO intends to use the AARTS data in
identifying high-dollar overpayments resulting from audit findings for future reports. As noted
above, OCFO has not identified any accounts receivable amounts that have met the threshold for
reporting high-dollar overpayments. OCFO staff noted that even with this proposed change,
none of the accounts receivable amounts they had reviewed for the three quarters would have
met the high-dollar overpayment threshold for reporting.

Recommendation

We recommend that the Chief Financial Officer work with FSA to determine whether Title IV
overpayments should be analyzed at the institution level or at the student level.




5
  The amount from the audit finding that the Department agrees is supported.

6
  When the Department considers an audit finding to be significant, either due to the nature of the issue involved in

the finding, the fact that it is a large monetary finding, or because it is a recurring finding, the action official may

require a review of additional information that results in an additional amount.


                                                            6

                            DEPARTMENT COMMENTS



On March 12, 2012, we provided the Department with a copy of our draft inspection report for
comment. We received the Department’s comments to the report on April 12, 2012. The
Department did not take issue with our results and concurred with our recommendation. The
Department’s response is attached in its entirety.



                  OBJECTIVE, SCOPE, AND METHODOLOGY



The objective of our inspection was to evaluate the Department’s process for identifying and
reporting high-dollar overpayments required under Executive Order 13520 as implemented
through guidance in Office of Management and Budget (OMB) Circular A-123, Appendix C,
Part III.

We began our fieldwork on March 30, 2011, and conducted an exit conference on
December 2, 2011.

We reviewed Executive Order 13520 and OMB Circular A-123, Appendix C. We also reviewed
a Department memorandum requesting clarification from OMB on OMB Circular A-123,
Appendix C and OMB’s response to the memorandum.

We interviewed Department staff in the Office of the Chief Financial Officer (OCFO), Office of
the Chief Information Officer (OCIO), and Federal Student Aid (FSA). We also interviewed
staff in OMB’s Office of Federal Financial Management.

We reviewed the following Department procedures:

      OCFO’s draft procedures for identifying and reporting high-dollar overpayments;
      FSA’s draft procedures for improper payment incident reporting; and
      OCIO’s final procedures for (1) handling improper payments, (2) handling of improper
       travel payments, (3) requesting the return of funds from a grantee or payee, and (4)
       processing returned payments, credit payments, and rejected payments.

We reviewed OCFO’s analysis of overpayments identified during the period ending March 31,
2011. We reviewed:

      OCFO’s analysis of the overpayments identified by OCIO and FSA.

      OCFO’s query of accounts receivable established from audit and program review
	
       findings between January 1, 2011, and March 31, 2011. OCFO’s list of accounts
	



                                               7

         receivable were extracted from the Department’s Cognos system and included accounts
         receivable established from A-133 audit, OIG audit, and program review findings.
      	 OCFO’s summary chart of its analysis of whether the identified overpayments from
         OCIO and FSA and from the accounts receivable query met the high-dollar overpayment
         threshold.

We reviewed FSA’s contract with Deloitte & Touche LLP. We also reviewed an OCFO listing
of its system controls or preventive measures that are in place to prevent improper payments in
the Department’s financial management application systems. We also reviewed available data in
the Audit Accountability and Resolution Tracking System.

Our inspection was performed in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s “Quality Standards for Inspection and Evaluation” (2011) as
appropriate to the scope of the inspection described above.



                            ADMINISTRATIVE MATTERS



Corrective actions proposed (resolution phase) and implemented (closure phase) by your office
will be monitored and tracked through the Department’s Audit Accountability and Resolution
Tracking System (AARTS). Department policy requires that you enter your final CAP for our
review in the automated system within 30 days of the issuance of this report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you or your staff have any
questions, please contact W. Christian Vierling, Director, Evaluation and Inspection Services at
202-245-6964.

Respectfully,

/s/

Wanda A. Scott
Assistant Inspector General
Evaluation, Inspection, and Management Services

Electronic cc:	 Phillip Juengst, OCFO
                William Blot, FSA
                                                8

                                   UNII TED STA
                                   UN       STATT ES DEPARTMENT OF EDUCA
                                                                   EDUCATI
                                                                         TIO
                                                                           ON
                                                                            N
                                                   OFF ICEE OF THE CH I EF FI NAN
                                                                              NANCCIAL OFFICER


                                                                            APR 11 2012

TO:                     Wanda Scott
                        Assistant Inspector General
                        Evaluation,, Inspection
                        Evaluation   Inspection,, and Management Services
                        Office of Inspector General

FROM:                   Thomas P. Skelly
                        Delegated to Perform Functions and Duties
                         of the Chief Financial Officer


SUBJECT::
SUBJECT                 "Review of the Department's Process for Identifying and Reporting High­
                        Dollar Overpayments Required Under Executive Order 13520
                                                                               13520"" Control
                        Number ED-OIG1113l0003


Thank you for providing us with an opportunity to respond to the Office of Inspector
General's (OIG
          (OIG)) draft report
                       report..

We are pleased that your report acknowledges the steps we are taking to assess and
strengthen our compliance with the reporting requirements under Execut
                                                                  Executiive Order
           OMB Circular A-123, Appendix C, Part III
13520 and OMS                                     III.. The Department is committed to
                                  payments,, as well as being transparent by reporting '
reducing and preventing improper payments
overpayments that occur
                  occur..

We concur with your single recommendation to work with Federal Student Aid to
determine whether Title IV overpayments should be analyzed at the institutional level or
at the student level. Our office works closely with Federal Student Aid
                                                                    Aid,, and we will
continue working to determine the most appropriate and cost-effective ways to identify
                                                                                identify,,
analyze and report high-dollar overpayments.

We appreciate the way in which you have collaborated with the Department in
conducting this review
                review,, and we appreciate this final opportunity to provide input.


cc::
cc         John Hurt
                 Financial
           Chief Financ ial Officer for
            Federal Student Aid




                                                400 MARYlAND
                                                    MARYLAND AVE. S.\\I .• WAS I IiNGTON
                                                                                   IiNGTON,, DC 20202
                                                                w ....w .l'd
                                                                         t'd..go\'
                                                                              gov

   The Oeparrmf.'nl of fducilt
       Deparcmt'nl of          lon 5 missio n is to promo(l.
                       L:cJucarlon                  promo(~~~ slIJdent
                                                                 sll1denr il l 'h!eV  v (.'nJl!n1
                                                                                        emenl and ~md pn~pim
                                                                                                        pr£>pilr:/fionlfifm fl o r gluh
                                                                                                                                   gloh:J1
                                                                                                                                        al co m l/ x'firh
                                                                                                                                           rOnJ                    by
                                                                                                                                                            llf!ss by
                                                                                                                                                   X'(iriHe!lfeSS
                                    {Cllterf nn educ:.lIl
                                    fosterillg           on:iI t.'xn!lfencc.'
                                                ooucallona/t'    ,\ t't!lfenn: .,/Il
                                                                                 /li d ens u r ing ('f.!uill
                                                                                                    l"f.!uill ;ic/!
                                                                                                                 JcnT (.'SS
                                                                                                                        '.H"..




                                                                                  9

